NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

DAVID SMITH-GARCIA, formerly known as David Garland Atwood, II
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 18-60021

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner David SmithGarcia requests leave to file the accompanying Petition for Writ of Certiorari from
the United States Court of Appeals for the Fifth Circuit without prepayment of
costs and to proceed in forma pauperis. Petitioner was represented by counsel
appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the
United States District Court for the Southern District of Mississippi and on appeal
to the United States Court of Appeals for the Fifth Circuit.
1

Date: August 31, 2020.

Respectfully submitted,

/s/ Wayne Milner
Wayne Milner
Attorney at Law
P.O. Box 1423
Flowood, Mississippi 39043
Telephone: 601/573-5429
Email: Milner3ofus@aol.com
Attorney for Defendant-Petitioner

